OFFICE OF INSPECTOR GENERAL




AUDIT OF
USAID/AFGHANISTAN’S
URBAN WATER AND
SANITATION PROGRAM
AUDIT REPORT NO. 5-306-07-006-P
June 07, 2007




MANILA, PHILIPPINES

Office of Inspector General


June 07, 2007

MEMORANDUM

TO:       	          USAID/Afghanistan Director, Leon S. Waskin

FROM: 	              RIG/Manila, Catherine M. Trujillo /s/ [George R. Jiron Jr. for]

SUBJECT:	 Audit of USAID/Afghanistan’s Urban Water and Sanitation Program
                     (Audit Report No. 5-306-07-006-P)

This memorandum transmits our final report on the subject audit. In finalizing the report, we
carefully considered your comments and have included your comments in Appendix II.

The report includes 5 recommendations for USAID/Afghanistan’s action. Based on your
comments and the documentation provided, we consider that final action has been taken on
Recommendation Nos. 3 and 5, and that management decisions have been reached on
Recommendation Nos. 1, 2 and 4. A determination of final action for Recommendations Nos. 1,
2 and 4 will be made by the Audit Performance and Compliance Division (M/CFO/APC) upon
completion of the proposed corrective actions.

I want to thank you and your staff for the cooperation and courtesy extended to us during the
audit.




U.S. Agency for International Development
                        th
PNB Financial Center, 8 Floor
Roxas Blvd, 1308 Pasay City
Manila, Philippines
www.usaid.gov
CONTENTS

Summary of Results ....................................................................................................... 1 


Background ..................................................................................................................... 2 


Audit Objective .................................................................................................................. 3 


Audit Findings ................................................................................................................. 4 


Were selected activities under USAID/Afghanistan’s Urban 

Water and Sanitation Program on schedule to achieve
planned results?

     Sustainability of Water Supply
     Systems a Concern..................................................................................................... 8 


     Contract Administration
     Needs Improvement.................................................................................................. 10 


     Other Contract Administration 

     Issues Need Improvement ........................................................................................ 12 


Evaluation of Management Comments ....................................................................... 14 


Appendix I – Scope and Methodology ....................................................................... 16 


Appendix II – Management Comments ....................................................................... 18 

SUMMARY OF RESULTS

The Regional Inspector General/Manila conducted this audit to determine whether
selected activities under USAID/Afghanistan’s Urban Water and Sanitation Program
were on schedule to achieve planned results (contract deliverables). (See page 3.)

Planned contract deliverables were generally being achieved under the Mission’s
Afghanistan Urban Water and Sanitation Project (AUWSP) per the contract amended
schedule. Although planned deliverables were achieved, we concluded that long-term
sustainability of the overall AUWSP was questionable and contract administration
problems were found with the contract between the Mission and Camp Dresser McKee
Inc. (CDM) the contractor hired to implement AUWSP. (See pages 4 and 5.)

Under AUWSP, CDM was contracted to implement such activities as design and
construct or improve water distribution systems in various cities, prepare water system
feasibility studies in several cities, deliver capacity-building assistance to applicable
Afghan ministries, and provide water and sanitation technical advisory services to the
Mission. Through the CDM contract, the Mission was able to achieve several of its
AUWSP program objectives by ensuring the completion of water distribution systems in
Gardez, Ghazni and Chil Duktharan and the extension of the water distribution system in
Karte Se. (See pages 4, 5, 6, 7, and 8.)

However, concerns about the sustainability of the newly constructed and extended water
distribution systems could affect future benefits or impact of the AUWSP program. For
example, after recognizing the need for operator training for the newly built water
distribution systems, the Mission did not properly assess and ensure the adequacy of
1) training provided to proposed operators of the newly built water systems or 2) plans of
the Government of Afghanistan’s ministries with water and sanitation responsibilities to
assure the financial and operational sustainability of the newly built and extended water
systems. (See pages 8, 9, and 10.)

In addition, substantive contract administration problems were identified with the
implementation of the AUWSP program activities. First, the Mission’s alternate
cognizant technical officer (CTO) responsible for the AUWSP program requested CDM
to make unauthorized changes to its work efforts in Kandahar. Second, the Mission did
not require CDM to comply with all contract work requirements or to meet reporting
requirements needed to assist the Mission in evaluating the AUWSP program. (See
pages 10, 11, and 12.) Third, the Mission did not require CDM to provide it with
necessary financial information to help monitor contract costs. As a result, the Mission’s
system for controlling, projecting and monitoring the contract costs did not provide for
the necessary information to foresee the contractor’s request for an additional $1.6
million in funds one month prior to the end of the contract. (See pages 12 and 13.)

This report made five recommendations to help correct the above identified problems.
(See pages 10, 12, and 13.)                USAID/Afghanistan concurred with the five
recommendations. Additionally, the Mission’s written comments outlining their action
plans to address our recommendations were detailed and focused on appropriate
corrective measures to strengthen the CTO administration of ongoing active awards and
deal with sustainability issues specific to this program. (See pages 14, 15, and 18.)


                                                                                        1
BACKGROUND

Most of Afghanistan’s infrastructure, including that used to provide water and sanitation
services, fell into disrepair or was destroyed during the period of unrest from the
mid-1970s through the Soviet invasion and subsequent years of civil war and Taliban
rule. According to World Bank estimates, less than 20 percent of the people in Kabul
have piped water, and more than half the provincial capital cities do not have piped
water systems. Sanitation facilities are crude or lacking and infant mortality rates from
diarrheal diseases account for 27 percent of all infant deaths in the first year of life.

To restore essential water and sanitation services to the Afghan people,
USAID/Afghanistan’s strategy included an urban water and sanitation program. Under
this program, USAID/Afghanistan planned to assist Afghan ministries and the private
sector by increasing the supply of safe drinking water in both rural and urban areas of
the country, expanding sanitation services, and building a strong technical and
institutional foundation for sustaining water and sanitation services.

USAID/Afghanistan’s urban water and sanitation program has evolved over time.
Originally, the Mission awarded a contract to the Louis Berger Group Inc. (LBGI), which
together with its subcontractor, Camp Dresser McKee Inc. (CDM), was to implement the
water and sanitation program in Afghanistan at an estimated cost of about $23 million.
However, the Mission subsequently removed the program from LBGI’s contract and
decided to implement the program directly through CDM.

On September 30, 2004, USAID/Afghanistan awarded a sole-source contract to CDM to
implement the Afghanistan Urban Water and Sanitation Project (AUWSP)—the largest
project under the Mission’s urban water and sanitation program. The contract was
initially valued at $41.3 million, and it had a project completion date of March 31, 2006.
The AUWSP had five components or programs under which CDM was to design and
construct or improve water distribution systems in various cities, extend the distribution
networks and provide increased sources of potable water in provincial capital cities,
prepare feasibility studies and detailed designs for water distribution systems in other
cities, deliver capacity-building assistance to the Afghan ministry responsible for water
and sanitation services in urban areas, and provide water and sanitation technical
advisory services to the Mission.

A series of contract modifications, however, significantly changed the AUWSP’s costs,
duration and statement of work. For example, estimated contract costs were reduced
from $41.3 million to $37.3 million and the project completion date was extended by nine
months to December 31, 2006. Further, the number of water distribution systems to be
designed and built was reduced, which significantly lowered the estimated subcontractor
construction costs from $18.6 million to $10.8 million. A good portion of this decrease
was offset by increases in estimated costs for non-construction activities. Table 1 on the
next page shows a comparison of the AUWSP’s original and final budgets by cost
element. The next section of the report describes more fully the changes made to the
project’s scope of work.




                                                                                        2
Table 1: Comparison of Original and Final Contract Budgets Costs
                          Original Contract    Final Contract     Percent
                              Budget 2             Budget        of Change
      Cost Element 1       (Sept. 30, 2004)    (Nov. 23, 2006)   (Rounded)
 Labor                           $ 1,355,321       $ 1,356,306         0
 Other Operating Costs             7,858,980         8,433,149         7
 Subcontractor
 Construction                     18,625,295        10,784,038       -42
 Subcontractor Security            4,497,141         4,810,696         7
 Other Subcontractor
 Costs                             6,123,283         9,055,204        48
    Sub-Totals                   $38,460,020       $34,439,393       -10
 Fixed Fee                         2,873,408         2,873,408         0
    Total Cost                   $41,333,428       $37,312,801       -10

This audit covered activities under the AUWSP for the period from September 30, 2004,
through December 20, 2006. For this period, USAID/Afghanistan had obligated $37.3
million and spent $36.2 million in support of the AUWSP. The Mission’s Office of
Infrastructure, Engineering and Energy was responsible for managing the AUWSP.

AUDIT OBJECTIVE
This audit was conducted as a part of the Regional Inspector General/Manila’s fiscal
year 2007 audit plan. The audit was designed to answer the following question:

•	        Were selected activities under USAID/Afghanistan’s Urban Water and Sanitation
          Program on schedule to achieve planned results?

Appendix I contains a discussion of the audit’s scope and methodology.




1
 Summary of CDM contract cost elements included in the original contract and contract
Modification No. 7.
2
    Table amounts shown differ slightly from the amounts in the original contract due to rounding.


                                                                                                     3
AUDIT FINDINGS

USAID/Afghanistan generally achieved its Afghanistan Urban Water and Sanitation
Project (AUWSP) planned results (contract deliverables) per the contract amended
schedule. However, despite the completion of the contract deliverables the sustainability
of this project is questionable because of matters dealing with the financial and
operational capacity of the constructed water systems, hence the overall impact of this
project to provide sustainable water supplies to planned populations of Afghanistan into
the future could be impacted. This issue is further discussed starting on page 8.
Furthermore, throughout the implementation of this program, USAID/Afghanistan did not
in all instances administer this contract in accordance with USAID policies and
acquisition regulations as further addressed starting on pages 10 and 12.

USAID/Afghanistan’s objectives with this program were to maximize the impact of funds
expended, and achieve a reasonable balance in obtaining results as quickly as possible,
while ensuring that current and future interventions in the water sector could be
sustained. To accomplish this, USAID/Afghanistan, on September 30, 2004, awarded
Camp Dresser & McKee Inc. (CDM) an 18-month sole-source cost-plus-fixed-fee
contract estimated to cost about $41.3 million to implement an urban water and
sanitation project. The major portions of work originally planned over the 18-month
period was for CDM to extend the water distribution systems and provide increased
sources of potable water to an estimated population of 380,000 in three provincial capital
cities Kandahar, Gardez, and Ghazni. In addition, CDM was to design and implement
expansion and improvements to a water distribution system in Chil Duktharan and
extend an existing water distribution system in Karte Se.

However, because of problems encountered with project implementation such as the
availability of water and security concerns, USAID/Afghanistan modified the original
statement of work (SOW) by decreasing the planned deliverables from the original
design. Additionally, USAID/Afghanistan extended the original contract period of
performance from 18 to 27 months to allow CDM to complete the revised planned
deliverables. The Table below summarizes the CDM contract’s revised planned
deliverables versus actual achieved deliverables.

Table 2: Summary of Revised Planned Deliverables Compared to Actual Achieved
Deliverables (As of December 20, 2006)
  CDM         Summary of Revised Planned         Summary of Actual Achieved
  Contract Deliverables                          Deliverables
  Program Potable water in two cities for a      Water systems were constructed
  One         future population of about 190,000 in two cities.
              in year 2020.
  Program Prepare seven preliminary water        Seven preliminary water project
  Two         project feasibility studies for    feasibility studies were prepared.
              designated cities.
  Program Provide water sector specialist        Provided water sector specialist
  Three       advisory services and train water  advisory services and trained
              utility staff.                     water utility staff.




                                                                                        4
    CDM         Summary of Revised Planned                  Summary of Actual Achieved
    Contract    Deliverables                                Deliverables
    Program     For Chil Duktharan3, design and             Designed and constructed a
    Four        construct a new water system and            water system for Chil Duktharan
                for Karte Se extend the Kabul water         and extended the Kabul water
                supply system.                              system in Karte Se.
    Program     Provide water and sanitation                Provided water and sanitation
    Five        technical advisory services over the        technical advisory services over
                initial 18 months of the contract.          the initial 18 months of the
                                                            contract.

To accomplish the Mission’s overall AUWSP objectives stated above,
USAID/Afghanistan defined the five programs.            The original planned and final
deliverables under each of the program areas are described in further detail below.
USAID/Afghanistan did not require CDM to report its contract costs based on work
performed for the five individual programs; therefore the audit was only able to identify
costs for limited activities within the five programs.4

Program One - Originally the contract SOW required CDM to extend the water
distribution systems and provide increased sources of potable water to an estimated
population of 380,000 in three provincial capital cities Kandahar, Gardez, and Ghazni.
Later, because of inadequate water resources and security concerns, Kandahar was
deleted from the program. Afterwards, CDM was to provide potable water for an
estimated year 2020 population of 190,000 for Gardez and Ghazni. As of December
2006, the accomplishments for the Gardez and Ghazni sites were:

     •	 On December 9, 2006, RIG/Manila auditors visited both Gardez and Ghazni and
        observed that the majority of the construction work had been completed and the
        water distribution systems should soon be finalized. As well, a staff member of
        International Relief & Development, Inc. (IRD), the consultant hired by the
        Mission to assist it with monitoring and evaluation of the CDM contract programs,
        concluded the water distribution systems were almost completed.
     •	 On December 20, 2006, USAID/Afghanistan formally transferred both the Gardez
        and Ghazni projects to the Ministry of Urban Development and Housing (MUDH)
        within the Government of Afghanistan (GOA).




3
 Since there are several spellings used in Mission documents to identify Chil Duktharan, which is
south of Kabul, Afghanistan, we chose the spelling used in the original CDM contract.
4
 The Chief of Party for CDM had agreed to provide additional contract costs information for the
programs but the information had not been received by the time we issued our report.


                                                                                                5
                                                             OIG photograph of a USAID-
                                                             funded steel water tank that
                                                             is    part   of  the  water
                                                             distribution         system
                                                             constructed in Gardez. The
                                                             water tank which is on the
                                                             right-hand      side      is
                                                             surrounded by a security
                                                             wall. Gardez, Afghanistan
                                                             (December 2006)




                                                             OIG photograph of a USAID-
                                                             funded steel reservoir used
                                                             to     hold    water   from
                                                             production    wells   before
                                                             being sent through the water
                                                             distribution system. Gardez,
                                                             Afghanistan (December 2006)




   •	 According to CDM documentation, the estimated construction and design costs
      (exclusive of administrative and security costs) for the Gardez and Ghazni water
      distribution systems were about $3 million and $2.5 million respectively.

Program Two - Originally the contract SOW required CDM to prepare engineering
feasibility and design studies for five cities for implementation of future urban water
sector projects and detailed conceptual designs for three of the five cities. Later,
USAID/Afghanistan deleted the contract requirement for CDM to prepare detailed
conceptual designs for three cities and requested CDM to only provide preliminary level
feasibility studies for a total of seven designated cities. As of December 2006, CDM had
completed preliminary level feasibility and design studies for all seven cities.

Program Three - Originally the contract SOW required CDM to provide, at the national
level, the services of a water sector institutional specialist on a half-time basis, and, at
the local operating level in urban communities, water sector institutional development
specialists, assisted by locally-hired support staff, to work with and train GOA ministry
staff responsible for urban water and sanitation services. Later, the SOW was revised


                                                                                          6
requiring the water sector institutional specialist to spend more time implementing other
programs and the water sector institutional specialist and water sector institutional
development specialist positions were combined into one position.                 As of
December 2006, CDM had devoted a level of effort to this requirement by providing
operator training to GOA ministry employees and by attending meetings sponsored by
MUDH concerning water and sanitation issues.

Program Four - Originally the contract SOW required CDM to design and implement
expansion and improvements to a water distribution system in Chil Duktharan and
extend an existing water distribution system in Karte Se. Both of these locations are
near or within the City of Kabul, Afghanistan. For example:

In Chil Duktharan, CDM was to construct a concrete water storage tank, install
conveyance pipelines from existing production wells, install one fuel storage tank and
install neighborhood fire hydrants and standpipes.

In Karte Se, CDM was to design and install water distribution piping, install two different
sizes of water pipe house connections, install water standpipes and public taps, and
there was no requirement for patching of pavement after installation.

Later, the contract SOW was revised, for example:

In Chil Duktharan, CDM was to construct a steel water storage tank, complete
installation and testing of two water production wells, install two fuel storage tanks,
delete plans for installation of neighborhood fire hydrants and standpipes but add
requirements for a water tap to the local village and a water line and tap to the local
boy’s school.

In Karte Se, CDM was to provide a different allocation of water distribution piping, install
water pipe house connections all the same size, delete installation of water standpipes
and public taps, and add a requirement for pavement repairs and replacement after
installation.

As of December 2006, the audit determined the following accomplishments for these two
sites:

    •	   Chil Duktharan is a community located about 20 kilometers south of Kabul.
         CDM, in concert with relevant GOA ministries, the City of Kabul, the World
         Bank’s consultant, and CARE International was to develop a sustainable potable
         water supply for a newly planned community designed to provide residences for
         up to 2,000 returning Afghan refugees. CDM started construction of the planned
         water facility in Chil Duktharan in May 2005 and USAID/Afghanistan transferred
         the completed facility over to the GOA in November 2006. CDM expended about
         $2.1 million for the construction and delivery of the Chil Duktharan water supply
         facility. 5

    •	   The Karte Se neighborhood is located within the city of Kabul. CDM started
         construction of the planned extended water distribution system in Karte Se in

5
 The costs for Chil Duktharan and Karte Se reported by CDM are exclusive of administrative and
security costs because CDM did not capture these costs by project.


                                                                                            7
       May 2005 and USAID/Afghanistan transferred the completed facility over to the
       GOA in September 2006. The extension of the Kabul water distribution system
       to Karte Se cost about $3.3 million for subcontract and delivery costs.

Program Five - There were no significant revisions to the contract SOW for this
program. As originally planned, CDM was to provide, on an as-needed basis, technical
advisory services to assist the Mission in the development of follow-on activities,
technical scopes of work, cost estimates, assistance with program management, policy
recommendations, and strategic planning for USAID activities in the water and sanitation
sector. As of December 2006, CDM had provided the Mission with two assessment
studies concerning solutions for problems found at the Afghanistan National Army
Hospital and Microrayan Wastewater Treatment Plants.

Although the Mission generally achieved its AUWSP planned deliverables, only some of
the Mission’s intended program objectives were achieved and contract administration
problems were found with the contract used to implement AUWSP. Therefore, the
overall results for the USAID/Afghanistan AUWSP were less than expected. For
example, the audit concluded that there is uncertainty about the long-term sustainability
of the AUWSP. As well, USAID/Afghanistan did not always administer the contract in
accordance with applicable USAID regulations. Each of these areas is discussed in
further detail below.


Sustainability of Water
Supply Systems a Concern
Summary: USAID/Afghanistan’s overall objective underlying this program was to
develop sustainable supplies of suitable quality water for certain areas of Afghanistan.
To further sustainability of this project USAID/Afghanistan recognized the need to put in
place procedures for collecting user fees for new water systems and for training
operators to maintain and operate the systems after the GOA’s acceptance of the
systems. However, during project implementation USAID/Afghanistan did not take
appropriate measures to ensure financial and operational sustainability of the
constructed water systems beyond the project completion date primarily because it
believed that adequate provisions had been made. As a result, the constructed water
distribution systems built under the AUWSP could have significant short and long-term
financial and operational problems ultimately impacting the supply of water to the
intended populations of Afghanistan.

USAID/Afghanistan’s contract with CDM stated that the overall objective of the AUWSP
was to develop sustainable supplies of suitable quality water.                 In fact,
USAID/Afghanistan emphasized at the onset of its AUWSP plans the need for evaluating
any national or provincial water sector institutional strengthening measures to ensure
that the interests of the public drinking water component of the entire Afghan water
sector are given the priority that public water supplies are accorded in most countries.
Each of the five program areas collectively would contribute to the achievement of this
objective. To sustain this program, USAID/Afghanistan intended through its contractor
to provide assistance to the GOA ministries concerning procedures for collecting user
fees to assist with the financing of these systems and to provide operator training to
maintain and operate the new water distribution systems.


                                                                                       8
However, despite these requirements and intended actions USAID/Afghanistan did not
take the appropriate measures to ensure that these water systems were financially and
operationally sustainable.

With regards to financial sustainability in Gardez and Ghazni the systems lacked proper
equipment as well as an adequate billing structure to ensure that fees could be collected
from the users. According to the Mission’s alternate cognizant technical officer (CTO)
and the Mission’s AUWSP plan consultant from IRD, the World Bank had installed an
operable water distribution system network for the Gardez and Ghazni new water
distribution systems. However, water meters necessary to measure water consumption
for each user were not available. Second, the billing structure for fee collection was
based on a flat rate so each user paid the same amount regardless of the amount of
water consumption. As a result, this fixed billing rate lacked controls to promote any
water conservation measures by the users.

As well, according to the CDM Chief of Party and the Mission’s water program
consultant from IRD, as of December 2006, only about 20 establishments were
presumed to be connected as clients to the Karte Se extended water system which was
completed in September 2006. When asked why there were so few hook ups to the
water system, the officials stated that most potential clients either viewed the monthly
charges for access to the water system as too high or believed that their current water
wells were adequate. The Mission had intended that there would be about 1,000
additional service connections added to the city water supply after the water extension in
Karte Se. However, according to the officials, a study or assessment had not been
performed to try to help determine the expected level of use by residential and business
clients once the extended water system was made available.

Hence, the lack of water meters and the billing structure in place could impact the GOA’s
ability to financially sustain water operations in Gardez and Ghazni. In addition, the
GOA’s ability to financially sustain the water operations in Karte Se could be impacted
by potential clients preferring to use their current water wells rather than the extended
water system.

With regards to operational sustainability, USAID/Afghanistan did not take proactive
measures to ensure that, once handed over to the GOA, the water systems would be
operated and maintained in accordance with the system requirements. According to the
CDM Country Director in an October 2006 Monthly Status report, the level of technical
capability of the two operators assigned to Chil Duktharan was dramatically less than
what would be required to understand the most basic concepts to operate and
troubleshoot the water system. It was stated that the lack of understanding was
attributable to the fact that the two operators had never seen any electronics,
instrumentation, or control systems of any kind.

In a November 2006 Monthly Status Report, CDM reported to the Mission that CDM staff
were working well with the GOA agency operators in Gardez and Ghazni and they
appeared eager to learn, but expectations for the operators should not be set
unreasonably high. For example, CDM reported that the operators had limited education
and would have trouble with parts of the operation that require knowledge of technology
or deciphering even the most basic technical manuals. Further, CDM reported that
these issues could not be overcome in the one month remaining on the project.


                                                                                        9
During audit field visits to Gardez, RIG/Manila auditors confirmed during interviews with
CDM’s mechanical and electrical engineers that operators sent by the GOA ministry to
get trained did not know how to read and understand English and did not understand
simple technical/engineering instructions. RIG/Manila auditors could not assess the
knowledge and capabilities of the operators because the water distribution systems in
Gardez and Ghazni were not yet fully operational at the time of the field visits.

During the conduct of the audit, RIG/Manila could not determine any efforts on the part
of the Mission to assess the adequacy of training provided to proposed operators of the
newly built water systems or how the GOA ministries with water and sanitation
responsibilities planned to assure the financial sustainability of the newly built and
extended water systems. USAID/Afghanistan officials were either not aware of or had
not taken any actions to address the above issues. As a result of the Mission’s
unawareness of the sustainability problems, the newly built water systems could have
significant financial and operational problems in the future. To achieve sustainability for
completed systems, we recommend the following:

   Recommendation No. 1: We recommend that USAID/Afghanistan conduct an
   assessment at the Gardez and Ghazni sites where a water distribution system
   was installed and make a determination as to the extent that further training is
   required, and then provide the training as necessary, for Ministry of Urban
   Development and Housing operators to operate and maintain the water systems
   at a sustainable level.

   Recommendation No. 2: We recommend that USAID/Afghanistan assist the
   relevant Government of Afghanistan ministries with water and sanitation
   responsibilities in determining the appropriate user fees to be charged to water
   system clients and how to increase usage of water system services by potential
   clients.


Contract Administration
Needs Improvement
 Summary: USAID/Afghanistan did not properly administer its contract with CDM in
 accordance with its acquisition policies and directives. USAID/Afghanistan did not
 require CDM to deliver certain performance reporting documents considered critical for
 evaluating the performance progress of the project. In some cases USAID/Afghanistan
 redirected work prior to official notification from the contracting officer of the changes.
 As a result, USAID/Afghanistan lacked key reporting information to adequately evaluate
 the project’s financial and performance progress. Furthermore, the beneficiaries were
 impacted to the degree that they were not satisfied or in full agreement with the
 changed level of effort.

USAID Automated Directives System (ADS) 202.3.6.3 outlines the operating unit’s and
Strategic Objective (SO) Team’s responsibilities stating that they must make
adjustments in tactics when conditions warrant. This may include developing an
entirely new activity and instrument, or simply modifying and changing existing
activities. In either case, the contracting officer must be involved early in the process.


                                                                                         10
When changes are considered necessary the SO Team must consult the contracting
officer and, if appropriate, the Office of General Counsel or its Regional Legal Advisor
as soon as possible when it is considering any change that would affect a legal
agreement.

In addition, USAID ADS 302.3.7.1, which incorporates by reference Acquisition and
Assistance Policy Directive 04-10, Standardized Model Letters for Designating the
Cognizant Technical Officer (CTO) for Contracts, Grants, and Cooperative Agreements,
provides guidance on CTO designations. USAID policy delegates authority to the CTO
to provide technical direction and guidance to a contractor but does not give authority for
the CTO to direct the contractor to change the contract statement of work. CTO
authorities and limitations, such as precluding the CTO from taking any action which
may impact on the contract schedule, funds, scope or rate of utilization of level of effort,
were stated in the CDM contract.

In the following instances, USAID/Afghanistan did not properly administer its contract in
accordance with its acquisition polices and USAID directives.

   1. 	 According to CDM weekly reports for the week of June 17 and June 24, 2005,
        the alternate CTO instructed CDM to close the Kandahar project and seek
        alternative projects because of the lack of suitable water supplies and security
        problems. CDM reported that during the week of July 22, 2005, it stopped work
        in Kandahar and it had started performing feasibility studies on other possible
        sites. However it was not until August 2005, according to a CDM weekly report,
        that it met with USAID to obtain approval for replacing the SOW on Kandahar
        with sites in the northern area of Afghanistan. USAID/Afghanistan did not modify
        the contract to reflect these changes until July 27, 2006, a year after the alternate
        CTO instructed CDM to stop and redirect its work in other areas. This reduction
        in work was by far the most significant change to the contract in terms of scope
        and costs. As a result, from a contractual standpoint, the CTO’s direction had an
        impact on the contract schedule, funds, scope or rate of utilization of level of
        effort, which were outside of the CTO’s delegated authority to do.

   2. 	The original contract SOW required CDM to prepare feasibility studies for
       drinking water systems in five provincial capitals and prepare a detailed
       conceptual design for three of the five capitals. A CDM progress report indicates
       that from the beginning of the project, it did not intend to prepare detailed
       conceptual designs for three of the provincial capitals as defined in the contract
       SOW. However it was not until July 27, 2006, that the contracting officer formally
       deleted this requirement from the contract and revised the SOW to reflect what
       CDM had actually been working on from the start of the contract. Furthermore,
       according to the GOA ministry officials in MUDH, they were not consulted on
       these changes which ultimately impacted the GOA’s satisfaction with the
       technical services received under this contract.

   3. 	 USAID/Afghanistan’s contract required CDM to submit an annual work plan, an
        annual report and periodic performance monitoring and evaluation plans
        containing the contractor’s plan for monitoring all activities by quarter. The plan
        was to include key indicators (technical and administrative), data sources and
        methodology of data collection and analysis and quality verification and targets.
        CDM never submitted a performance monitoring and evaluation plan and the


                                                                                          11
       annual report requirement was not met because CDM management believed that
       the weekly and monthly status reports met the spirit of the performance
       monitoring and evaluation plan and that the annual report was essentially a
       compilation of the weekly and monthly reporting requirements so it served no
       value. USAID/Afghanistan’s contracting officer modified the CDM contract in
       November 2006 deleting these requirements citing in the negotiation
       memorandum that these changes were necessary to reflect the actual reports
       that CDM submitted which USAID accepted during contract performance in lieu
       of what was required. As a result, USAID/Afghanistan did not have the
       necessary tools to effectively and systematically assess progress in achieving
       results and to make informed management decisions on a timely basis.

Since the contract has ended we are not making a recommendation concerning changes
to the planned feasibility studies. However, to address the issues concerning CTO
authority being exceeded and reporting requirements not being met, we are
recommending the following:

   Recommendation No. 3: We recommend USAID/Afghanistan establish a
   practice that all incoming Cognizant Technical Officers attend an incoming
   briefing given by the contracts office to reinforce the knowledge of applicable
   contractual delegated authorities and limitations for the duration of their stay in
   Afghanistan.

   Recommendation No.4: We recommend that USAID/Afghanistan require that
   Cognizant Technical Officers at least quarterly, as applicable, fulfill their contract
   administration responsibilities by confirming and documenting that contractors
   are complying with specific contract reporting requirements.


Other Contract Administration
Issues Need Improvement
 Summary: USAID/Afghanistan did not require necessary financial data from CDM to
 allow it to effectively manage the funding of this project to ensure compliance with
 contract limitation of funds issues. As a result, the Mission’s system for controlling,
 projecting and monitoring contract costs did not provide for the necessary information
 to foresee the contractor’s request for an additional $1.6 million in funds one month
 prior to the end of the contract. CDM did not provide the Mission with necessary
 financial reporting information because the contract lacked specificity as to what was to
 be reported.

USAID/Afghanistan did not require the contractor to provide timely and valid cost,
funding, schedule, and related management information for use in contract performance
analysis. As a result, CDM did not comply with the limitation of cost clause concerning
financial reporting matters.

Federal Acquisition Regulation 52.232-20, Limitation of Cost, limits costs contained in
financial reporting requirements for cost-type contracts. The limitation of cost clause in
cost-type contracts requires the contractor to advise the contracting officer in writing
whenever the contractor has reason to believe that costs expected to be incurred under


                                                                                            12
the contract in the next 60 days, when added to all costs previously incurred, will exceed
75 percent of the estimated total contract costs or funds allotted to the contract,
respectively. The limitation of cost clause also requires the contractor to notify the
contracting officer when there are indications that the total cost for the performance of a
contract will be greater or substantially less than the estimated total contract cost.

On October 19, 2006, one month prior to the end of the contract, CDM notified the
USAID/Afghanistan contracting officer that the total cost for the performance of the
contract, exclusive of fee, would be greater than previously estimated. CDM reported
that as of October 19, 2006, it had invoiced $33,568,119 for services through
August 26, 2006.     This represents 92 percent of the total estimated costs of
$36,462,801, which USAID/Afghanistan fully funded on October 10, 2006. Furthermore,
CDM’s draft invoice amount of $2,182,472, which CDM had not yet submitted for
September, brought total incurred costs to $35,750,592, 98 percent of the total funded
contract costs. In CDM’s October 19, 2006, notification to USAID, it requested an
additional $1,619,641 along with an extension through December 15, 2006, to complete
the scope of work in the contract. This occurred primarily because:

   •	 The contract with CDM included a requirement for CDM to provide quarterly and
      annual expenditure reports. The contract did not stipulate the specifics of what
      was required within these reports. In lieu of these reports, CDM attached to its
      monthly invoices a cumulative expenditure report reflecting total costs incurred
      and paid through the current invoice along with unused budget amounts.

   •	 Though USAID/Afghanistan’s Office of Financial Management monitors and
      reports the cumulative expenditures against total estimated costs and
      obligations, this information is not effectively used by the CTO in the technical
      office as a management tool for purposes of managing the contractor’s
      performance.

As a result USAID/Afghanistan’s system for controlling, projecting and monitoring the
contract costs did not provide for the necessary information to foresee the contractor’s
request for an additional $1.6 million in funds one month prior to the end of the contract.

Given that this contract has ended, no specific recommendation can be given in respect
to this activity. However for current and future acquisition awards we recommend the
following:

   Recommendation No. 5: We recommend that USAID/Afghanistan strengthen its
   system for controlling, projecting and monitoring contract costs by:

   •	 stipulating the specifics of the type of financial reporting information that is 

      required for quarterly and annual reports, and 


   •	 requiring Mission technical offices to use cumulative expenditures against
      total budget estimated costs by line item and obligations as a management
      tool for purposes of managing the contractor’s performance.




                                                                                           13
EVALUATION OF
MANAGEMENT COMMENTS
USAID/Afghanistan’s comments to the draft report are included in their entirety in
Appendix II.

In its comments to the draft report, the Mission agreed with each of the
recommendations presented.

In response to Recommendation No. 1, the Mission stated that by the end of Calendar
Year 2007, it plans to have a contractor conduct an assessment of the operators’
training needs and provide the necessary training and/or technical support to the water
system distribution staff in Gardez and Ghazni. Based on the Mission’s response, we
consider that a management decision has been reached.

In response to Recommendation No. 2, the Mission provided additional information
further explaining that the issue with the user fees by itself was not the underlying
reason why the GOA might not be able to financially sustain the water operations in
Karte Se. We edited portions of the report accordingly to reflect the Mission’s
comments. Furthermore, the Mission stated that the Central Authority for Water Supply
and Sanitation has also taken measures to require potential beneficiaries in Karte Se to
use the water resources available through the city water supply system. The Mission
also stated that by the end of Calendar Year 2007, it planned to have an assessment
conducted and provide technical assistance to the GOA as needed. Based on the steps
already taken and those in process, we consider that a management decision has been
reached on this recommendation.

In response to Recommendation No. 3, the Mission stated that it has institutionalized a
practice whereby all newly assigned cognizant technical officers (CTOs) are fully aware
of their responsibilities. The Mission’s Office of Acquisition and Assistance hand-
delivers all CTO designation letters and explains/discusses salient points in the
document. All newly assigned CTOs are fully briefed on their duties and responsibilities
and the limits of their authorities by the Contracting Officer. Along with the CTO
designation letter, the Mission also provides the CTO three Mission Notices, addressing
the Roles and Responsibilities of the CTO, Funds Control Violations, and Unauthorized
Commitments. We reviewed the Mission’s new procedures and documents and found
them to be sufficient to address the recommendation. Therefore, we consider that final
action has been taken on this recommendation.

In response to Recommendation No. 4, the Mission stated that by the end of July 2007, it
planned to issue a Mission Order, which will provide for quarterly reporting by CTOs and
require confirmation by CTOs that contractors are complying with specific reporting
requirements, or if not, why. The Mission stated that if the Office of Acquisitions and
Assistance (OAA) determines that the CTO is not fulfilling contract administration
responsibilities, it is within the OAA’s purview to relieve them of their responsibilities.
Based on the Mission’s response, we consider that a management decision has been
reached.



                                                                                        14
In response to Recommendation No. 5, the Mission stated that it is now requesting
contractors to submit summary invoices to include columns for the budget (ceiling price),
remaining budget balance and percentage billed to date. In addition, the Mission
provided additional information supporting the fact that it was aware of a potential cost
overrun, however, its system for controlling, projecting and monitoring contract costs did
not provide for the necessary information to foresee the contractor’s request for an
additional $1.6 million in funds one month prior to the end of the contract. We have
corrected the report to accurately reflect the impact of this finding. We reviewed the
Mission’s new procedures and documents and found them to be sufficient to address the
recommendation. Therefore, we consider that final action has been taken on this
recommendation.

A determination of final action with regard to the measures taken by the Mission to
address Recommendation Nos. 1, 2, and 4 will be made by the Audit Performance and
Compliance Division (M/CFO/APC) upon completion of the proposed corrective actions.




                                                                                       15
                                                                               APPENDIX I 




SCOPE AND METHODOLOGY

Scope
The Regional Inspector General/Manila audited USAID/Afghanistan’s urban water and
sanitation program in accordance with generally accepted government auditing
standards. The purpose of the audit was to determine whether selected activities under
the program were on schedule to achieve planned results (contract deliverables).

Specifically, the audit covered the Afghanistan Urban Water and Sanitation Project
(AUWSP)—the largest project under USAID/Afghanistan’s $60 million urban water and
sanitation program. The AUWSP was implemented on behalf of the Mission by Camp
Dresser McKee Inc. (CDM). The audit covered activities under the AUWSP for the
period from September 30, 2004, through December 20, 2006. We performed audit
fieldwork from November 28, 2006, through December 20, 2006, at USAID/Afghanistan,
which is located in Kabul. Additionally, we visited AUWSP construction sites at Karte
Se, an area within the city of Kabul, and the cities of Gardez and Ghazni. By the time
our fieldwork started, CDM had closed its Kabul office and shipped all its employees and
records out of Afghanistan and only its chief of party remained in Kabul.

CDM carried out the AUWSP under a $37.3 million sole-source, cost-plus-fixed-fee
contract. The AUWSP had five programs under which CDM was to design and
construct or improve water distribution systems in various cities, extend the distribution
networks and provide increased sources of potable water in provincial capital cities,
prepare feasibility studies for water distribution systems in other cities, deliver capacity-
building assistance to the Afghan ministry responsible for water and sanitation services
in urban areas, and provide water and sanitation technical advisory services to the
Mission. Our audit covered all five programs. As of December 20, 2006, the Mission
had obligated and spent $37.3 million and $36.2 million, respectively, for the AUWSP.

As part of the audit, we assessed the significant internal controls used by
USAID/Afghanistan to monitor the AUWSP. The assessment included controls related
to whether the Mission (1) required and approved an implementation work plan, (2)
monitored and evaluated the performance and progress of its contractor, (3) received
and reviewed progress reports, (4) reviewed progress reports submitted by its consultant
International Relief & Development, Inc. (IRD), (5) conducted and documented site visits
to evaluate progress and monitor quality, and (6) properly reviewed the contractor
payment process. We also reviewed the Mission’s Federal Managers’ Financial Integrity
Act report for fiscal year 2006 for any issues affecting the audited activities. Finally, we
reviewed any relevant prior audit reports.

Methodology
To answer the audit objective, we interviewed officials and staff from
USAID/Afghanistan, CDM’s chief of party, and officials from the Afghan government
ministry managing their country’s water and sanitation programs. Additionally, we
interviewed officials from IRD, which was monitoring the AUWSP on behalf of the
Mission, and we interviewed officials from CARE International and the United Nations



                                                                                          16
                                                                           APPENDIX I


Development Programme, which were implementing other water and sanitation projects
for the Mission. We reviewed applicable USAID and Mission policies and procedures
and evaluated the Mission’s compliance with relevant Federal Acquisition Regulations.
We also analyzed and reviewed relevant documents obtained from the Mission and
CDM. This documentation included the CDM contract and its modifications, the AUWSP
implementation work plan and related schedules, site visit and other monitoring reports,
progress reports, and financial records.

We did not develop materiality thresholds for answering the audit objective because a
significant number of the CDM contract planned deliverables were qualitative in nature.




                                                                                     17
                                                                       APPENDIX II 




MANAGEMENT COMMENTS



MEMORANDUM


TO:                 Catherine M. Trujillo, RIG/Manila

FROM:               Carl Abdou Rahmaan, Acting Mission Director /s/

DATE:               May 22, 2007

SUBJECT:            Audit of USAID/Afghanistan’s Urban Water and Sanitation
                    Program (Audit Report No. 5-306-07-00X-P)

REFERENCE:          CTrujillo/LWaskin memo dated 04/19/07

Thank you for providing the Mission the opportunity to review the subject draft
audit report. We are providing below our comments, other relevant information,
and management decisions on the recommendations in the audit report.

MISSION RESPONSES TO AUDIT RECOMMENDATIONS

Recommendation No. 1: We recommend that USAID/Afghanistan conduct
an assessment at the Gardez and Ghazni sites where a water distribution
system was installed and make a determination as to the extent that further
training is required, and then provide the training as necessary, for Ministry
of Urban Development and Housing operators to operate and maintain the
water systems at a sustainable level.

The Mission agrees with the recommendation.

Planned Action: By the end of CY07, the Mission plans to have a contractor
conduct an assessment of the operator’s training needs and provide the
necessary training and/or technical support to the water system distribution staff
in Gardez and Ghazni.

The Mission deems that the planned action adequately addresses the
recommendation and therefore requests RIG’s concurrence to this management
decision.


                                                                                 18
                                                                         APPENDIX II



Recommendation No. 2: We recommend that USAID/Afghanistan assist the
relevant Government of Afghanistan ministries with water and sanitation
responsibilities in determining the appropriate user fees to be charged to
water system clients and how to increase usage of water system services
by potential clients.

Although the Mission agrees with the recommendation to provide Technical
Assistance to the Government of Afghanistan (GoA), we would like to make the
following comments:

1. 	      The issue of “user fee” as recommended to be addressed is not the actual
          problem in Karte Se. The fact is that the potential beneficiaries of the
          water supply system built by CDM in Karte Se area of Kabul are generally
          high-income Afghans. Most of the houses in Karte Se are either occupied
          by the rich people or rented by international and/or national NGOs and
          construction/trace companies who have established their own
          independent in-house water supply systems, and therefore, they do not
          need or do not want to be connected to the public system.

2. 	      CAWSS with technical support from USAID and other donors have
          already analyzed the situation and has adjusted the hook up fee in Karte
          Se to a reasonable amount, but due to the fact mentioned in No.1 above,
          CAWSS has not been able to increase the usage of water system services
          by potential clients to a reasonable number.

          Currently the number of clients connected to the system has increased
          from 20 houses to around 80 houses, but still it is too low compared to the
          target number of 1000 potential beneficiaries. To address this problem,
          CAWSS has sent a letter to the High Commission for Water Resources
          Management in Afghanistan. The letter requests the High Commission to
          come up with a law/decree that do not allow digging of private deep wells
          and use of underground water resources by those households who are
          either connected or can be connected to the city water supply system.
          CAWSS believes that by putting such a restriction enforced on the use of
          underground water resources in Karte Se, the potential number of
          beneficiaries of the system will be increased.

       Planned Action: By the end of CY07, the Mission plans to have a contractor
       conduct an assessment of the current situation and provide technical
       assistance to the GOA as needed.

       The Mission deems that the planned action adequately addresses the 

       recommendation and therefore requests RIG’s concurrence to this 

       management decision.





                                                                                   19
                                                                     APPENDIX II


Recommendation 3: We recommend that USAID/Afghanistan establish
a practice that all incoming Cognizant Technical Officers attend an
incoming briefing given by the Contracts Office to reinforce the
knowledge of applicable contractual delegated authorities and
limitations for the duration of their stay in Afghanistan.

The Mission agrees with the recommendation.

Action taken: The Mission has institutionalized a practice whereby all newly
assigned CTOs are fully aware of their responsibilities. OAA is hand-
delivering all CTO designation letters and explaining/discussing salient points
in such document. All newly assigned CTOs are fully briefed on their duties
and responsibilities and the limits of their authorities by OAA. (See Annex 1)

The Mission requests that the recommendation be closed upon issuance of
the final audit report.

Recommendation 4: We recommend that USAID/Afghanistan require
that Cognizant Technical Officers at least quarterly, as applicable, fulfill
their contract administration responsibilities by confirming and
documenting that contractors are complying with specific contract
reporting requirements.

The Mission agrees with the recommendation.

Planned Action: By the end of July 2007, the Mission will draft a Mission
Order, which provides for quarterly reporting by CTOs and requires
confirmation by CTOs that contractors are complying with specific reporting
requirements, or if not, why.

CTOs are required by training and through letters of delegation to establish
and maintain familiarity with the requirements of their agreements beginning
with their initial assignments, at post award conferences, and in frequent
communications with Contracting Officers during contract administration.

Should an implementing partner fail to meet any requirement, CTOs are also
instructed to convey such information to OAA. Further, if and when CTOs are
judged by OAA not to be fulfilling their contract administration responsibilities,
it is within OAA’s purview to relieve them of their responsibilities. In
summary, the CTO/Contracting Officer team is encouraged to work together
collegially to ensure that all reporting requirements are being met.

The Mission deems that the planned action adequately addresses the
recommendation and therefore requests RIG’s concurrence to this
management decision.




                                                                               20
                                                                        APPENDIX II 



   Recommendation 5: We recommend that USAID/Afghanistan
   strengthen its system for controlling, projecting and monitoring
   contract costs by:

   •	 Stipulating the specifics of the type of financial reporting information
      that is required for quarterly and annual reports, and

   •	 Requiring Mission technical offices to use cumulative expenditures
      against total budget costs by line item and obligations as a
      management tool for purposes of managing the contractor’s
      performance.

The Mission agrees with the recommendation, but not the findings.

The Mission does not question its need to strengthen its system for controlling,
projecting and monitoring contract costs. However, as a factual matter, the
Mission disputes the summary finding, namely, that “… the Mission was not
aware that the contractor needed $1.6 million in additional funds to complete the
contract until one month prior to the end of the contract.” Further, the contract
did, in fact, include several requirements to provide “timely and valid”
management information, including FAR 52.232-22, Limitation of Funds.

In essence, as early as August 2006, the Mission was aware that contract costs
were running much higher than forecast and that the contractor’s reporting of
cost projections was suspect. Nevertheless, the Mission’s efforts to monitor
costs were insufficient even after being informed of a possible costs overrun,
partly because the contractor failed to timely provide reliable costs projections as
requested by the mission. (See Annex 2)

Action Taken: The mission has initiated measures to address this
recommendation by requesting contractors to submit summary invoices that
include the following columns: budget (ceiling price), remaining budget balance
and percentage billed to date (See Annex 3). OFM in coordination with the CTO
monitor cumulative expenditures by line item to ensure that budget ceilings are
not exceeded and that they are commensurate with physical progress.

The Mission requests that this recommendation be closed upon issuance of the
final audit report.




                                                                                  21
U.S. Agency for International Development 

        Office of Inspector General 

        1300 Pennsylvania Ave, NW 

          Washington, DC 20523 

            Tel: (202) 712-1150 

            Fax: (202) 216-3047 

            www.usaid.gov/oig
